No. 19-875
INTHE

$Upreme <!tourt of tbe ffl:niteb $'tates
OTO, L.L.C.,

Petitioner,

v.
JULIE A.

KEN KHO;

Su, CALIFORNIA LABOR COMMISSIONER,

Respondents.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and
that on this 14th day of February, 2020, I caused three copies of the Brief of the Cato
Institute as Amicus Curiae in Support of Petitioner to be served by third-party
commercial carrier on the counsel identified below, and caused an electronic version to
be transmitted to the counsel identified below, pursuant to Rule 29.5 of the Rules of this
Court. All parties required to be served have been served.
Kannon K. Shanmugam

PAUL, WEISS, RIFKIND, WHARTON &
GARRISON LLP

2001 K Street, NW

Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com

Counsel for Petitioner

David A. Rosenfeld
WEINBERG, ROGER & ROSENFELD
1001 Marina Village Parkway, Suite 200

Alameda, CA 94501

(510) 337-1001
drosenfeld@unioncounsel.net

Counsel for Respondent Ken Kho

Miles E. Locker
CALIFORNIA DEPARTMENT OF INDUSTRIAL
RELATIONS

455 Golden Gate Avenue, 9th Floor
San Francisco, CA 94102
(415) 703-4863
mlocker@dir.ca.gov

Counsel for Respondent Julie A. Su

2

